Digital Federal Credit Union (DCU)
Secured Visa® Agreement and
Additional Federal Disclosure
Use this form when requesting a Secured DCU Visa® Credit Card.
To speed the processing of your application please follow these steps:
1. Complete the Secured Visa Disclosure Form in its entirety and sign it. Incomplete or unsigned
applications will delay processing of your request.
2. If you are applying for a Secured VISA Credit Card at the same time you are applying for
MEMBERSHIP with DCU, mail the completed form, along with the actual application, cashier’s check
or money order for the amount of secured credit you are requesting, and the required notarized
documentation to:
Digital Federal Credit Union
Attn: Consumer Loan Department
220 Donald Lynch Boulevard,
PO Box 9130
Marlborough, MA 01752-9130
or stop by any of our branch offices.
3. If you are already a member you may also fax this form, along with the loan application, to 508/2636392.

What you can expect
Once you’ve mailed or faxed your application . . .
1. If you are approved, the funds will be secured as you have indicated on the form and your DCU VISA
Card(s) will be mailed directly to the Primary Borrower’s address.
2. Please allow 2 weeks to receive your card/cards.

Digital Federal Credit Union (DCU)
Secured Visa® Agreement and
Additional Federal Disclosure
PLEASE PRINT
Borrower Name ________________________________________________
Co-Borrower Name (if applicable)__________________________________
Member Number ___________________ Account in which Pledged Funds (Shares) are Currently #_______
Amount of Shares Pledged (must be equal to amount of secured credit being requested) $_______________
These funds will be moved to a separate account within your Membership. You will see the account reflected
on your statement.
This “Additional Disclosure” is provided together with the Digital Federal Credit Union VISA Credit Card Agreement
and Federal Truth-in-Lending Disclosure Statement incorporated by this reference.
Pledge of Shares (Funds): I (the borrower(s)), understand that I am pledging, under the Uniform Commercial Code,
shares now on deposit in the account I have designated above. I understand that I must, at all times, keep a sum
equal to my total credit limit and/or any secured credit increase in this account and that all these funds will not be
available to me until such time as I repay my entire loan and my loan account is terminated. I understand that this
security interest will cover future purchases and advances under this Disclosure and Agreement. If I default, you
(DCU) may apply these shares to repay my loan in accordance with federal or other law.
I understand that the ANNUAL PERCENTAGE RATE I received when I opened this loan: (1) applies only while the
loan is fully secured and that if for any reason I no longer have sufficient funds in this share account to secure the
credit limit and you are unable to transfer the needed funds from any of my other DCU Accounts, my ANNUAL
PERCENTAGE RATE will be increased to that of your then current unsecured Visa Credit Card Account product as
determined by my personal credit history and (2) does not take into account the amount pledged in my share
account. Further, I understand that this pledge of shares in no way effects your ability to increase my ANNUAL
PERCENTAGE YIELD if payment is considered late.
Pledge of Future Shares for Secured Credit Limit Increases: If, in the future, I request an increase in the
amount of credit accessible to me via this Visa Account, I understand and agree that you will automatically
hold an amount equal to the amount of the increase I have requested, in addition to that amount already held,
in the Share Account designated above.
Copy Received: I acknowledge receipt of the Digital Federal Credit Union Visa Credit Card Agreement and Federal
Truth-in-Lending Disclosure Statement and this document, as an integrated part of that Agreement and Disclosure
Statement, and agree to the terms.

Borrower Signature

Date

Co-Borrower Signature

Date

M729B (2.2010)

